No.

3In the bupreme Court of the Viluiteb iptateli
Lincoln Rymer, Petitioner
v.
UT at Martin, et al., Respondents

CERTIFICATE OF SERVICE

I, Lincoln Rymer, do hereby swear and affirm under 28 U.S.C. ยง1746 that on
JA I 15 2 0(c't , three copies of the Petition with Appendices in the above titled
case were mailed, first class postage prepaid, to Michael D. Fitzgerald, Esq.,
University of Tennessee, 719 Andy Holt Tower, Knoxville, TN 37996, counsel for the
University respondents.

Lincoln Rymer
154 Fowler Cemetery Lane
Hurricane Mills, TN 37078
931-296-3001

RECEIVED
JUL 18 2019
OFFICE OF THE CLERK
SUPREME COURT U.S.

